HHS/OIG, Audit -"Review of the Ability of Noncustodial Parents to Contribute Toward the Medical Costs of Title IV-D Children in New York Under the State Children's Health Insurance Program,"(A-02-02-02005)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of the Ability of Noncustodial Parents to Contribute Toward the Medical Costs of Title IV-D Children
in New York Under the State Children's Health Insurance Program," (A-02-02-02005)
April 21, 2004
Complete
Text of Report is available in PDF format (683 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The report points out that New York has an opportunity to increase enrollment in the State Children’s
Health Insurance Program (SCHIP) and have noncustodial parents pay a portion of the associated costs.  Based on a
statistically valid sample, we estimated that the noncustodial parents of 36,877 Title IV-D children eligible for SCHIP,
but not enrolled, could have contributed about $22.3 million toward the $40.7 million in premiums that would have been
incurred had the children been enrolled in SCHIP.  Based on another statistical sample, we estimated that the noncustodial
parents of 12,347 children, who received SCHIP benefits, could have contributed about $5.1 million toward the $9.3 million
in SCHIP premiums paid on the children’s behalf.  We recommended that the New York  Division of Child Support
Enforcement coordinate with the Department of Health to revise New York’s Public Health Law so that the State can realize
cost savings associated with the SCHIP program.